Case: 20-50649

Document: 00516014571

Page: 1

Date Filed: 09/15/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

September 15, 2021

No. 20-50649
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Aaron Christopher Pleasant,
Defendant—Appellant.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 7:19-CR-264-1
Before Higginbotham, Duncan, and Engelhardt, Circuit Judges.
Per Curiam:*
Aaron Christopher Pleasant pleaded guilty to possession of a firearm
after a felony conviction. Relying on the analysis set forth in United States v.
Lopez, 514 U.S. 549 (1995), Pleasant argues that 18 U.S.C. § 922(g)(1), the
statute of conviction, exceeds the scope of Congress’s power under the

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50649

Document: 00516014571

Page: 2

Date Filed: 09/15/2021

No. 20-50649

Commerce Clause and is thus unconstitutional. He concedes that his claim
is foreclosed by circuit precedent, and he raises the issue to preserve it for
further review.

The Government has filed an unopposed motion for

summary affirmance and an alternative request for an extension of time to file
its brief.
The court pretermits the question of the timeliness of the notice of
appeal. See United States v. Martinez, 496 F.3d 387, 388-89 (5th Cir. 2007).
Summary affirmance is proper if “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as
to the outcome of the case.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158,
1162 (5th Cir. 1969). Pleasant’s instant challenge to the constitutionality of
§ 922(g)(1) is foreclosed. See United States v. Alcantar, 733 F.3d 143, 145-46
(5th Cir. 2013); United States v. Daugherty, 264 F.3d 513, 518 (5th Cir. 2001);
United States v. De Leon, 170 F.3d 494, 499 (5th Cir. 1999).
Thus, the Government’s unopposed motion for summary affirmance
is GRANTED. The Government’s alternative motion for an extension of
time to file an appellate brief is DENIED. The district court’s judgment is
AFFIRMED.

2

